ER-B-99-02




     AUDIT
    REPORT

                                 SMALL DISADVANTAGED
                               BUSINESS PROGRAM AT THE
                              CHICAGO OPERATIONS OFFICE




                                            JANUARY 1999

 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                                      DEPARTMENT OF ENERGY
                                         Washington, DC 20585
                                                 January 25, 1999

MEMORANDUM FOR THE ACTING MANAGER, CHICAGO OPERATIONS OFFICE

FROM:          Terry L. Brendlinger, Manager (Signed)
               Eastern Regional Audit Office
               Office of Inspector General

SUBJECT:       INFORMATION: Audit Report on “Small Disadvantaged Business Program
               at the Chicago Operations Office”

BACKGROUND

The Small Business Act (Act) requires that small business concerns owned and controlled by socially
or economically disadvantaged individuals have the maximum practicable opportunity to participate in
contracts awarded by any Federal agency. Section 8(a) of the Act establishes a program that
authorizes the Small Business Administration (SBA) to enter into contracts with other agencies and
award subcontracts for performing those contracts to firms enrolled in the 8(a) Program directly to the
agencies. Contracts are to be awarded competitively if the anticipated award price of the contract will
exceed $3 million and at least two responsible 8(a) firms could submit offers.

The objective of the audit was to determine whether the Chicago Operations Office (Chicago) was
providing the maximum practicable opportunity for small disadvantaged businesses to participate in
contract awards.

RESULTS OF AUDIT

Chicago did not provide the maximum practicable opportunity for small disadvantaged businesses to
participate in contract awards. Chicago had 12 contracts with small disadvantaged businesses in June
1998, nine of which were awarded non-competitively. Full and open competition among eligible small
disadvantaged firms is essential if one of the most important goals of the program, to achieve the
"maximum practicable opportunity," is to be satisfied. Consistent with this goal, the Department's
objective should be to cast a "wide net" to ensure that eligible firms are: (i) aware of Departmental
procurement opportunities for small disadvantaged firms and (ii) given an opportunity, in a
competitive environment, to fully participate in such procurement activities. The approach taken at
Chicago, as disclosed by this audit, in essence, discouraged maximum opportunity.

We also found that changes to the terms and conditions of two of the procurements suggest that
adjustments were made to reduce the total anticipated costs to a level below the competitive
threshold, allowing the contracts to be awarded without competition. This condition existed because
Chicago did not require acquisition personnel to comply with all requirements of the Act.

As a result, the goal of the 8(a) program was not fully achieved at Chicago. Further, because of the
lack of competition, the Department may have paid more than necessary for services provided by
some 8(a) firms. We recommended that the Chicago Acquisition and Assistance Group establish a
policy to (1) require acquisition personnel to comply with the "maximum practicable opportunity"
                                                  -2-


requirements of the Act; (2) prohibit acquisition personnel from modifying the terms or conditions of
8(a) procurements to reduce cost estimates and avoid the requirement to seek competitive bids; and
(3) require acquisition personnel to seek competitive bids instead of awarding follow-on contracts to
incumbent contractors on a sole-source basis.

MANAGEMENT REACTION

Management did not concur with the finding or recommendations, stating that the two examples in the
report show Chicago did an outstanding job in negotiating fair and reasonable prices. Management
stated that Chicago used the cost proposals as the basis for negotiating prices that were in the
Government’s best interest rather than reducing estimates below the threshold for competition.
SMALL DISADVANTAGED BUSINESS PROGRAM AT THE
CHICAGO OPERATIONS OFFICE


TABLE OF
CONTENTS



               Overview

               Introduction and Objective .........................................................1

               Conclusions and Observations.................................................. 1


               Maximum Practicable Competition

               Details of Finding ......................................................................3

               Recommendations and Comments ...........................................6


               Appendix

               Scope and Methodology ............................................................7
Overview

INTRODUCTION AND   The Act requires that small business concerns owned and controlled by
OBJECTIVE          socially or economically disadvantaged individuals have the maximum
                   practicable opportunity to participate in contracts awarded by any Federal
                   agency. Congressional policy implementing the Act requires that Federal
                   agencies ensure a competitive economic climate that reduces the
                   concentration of economic resources and expands competition.

                   Section 8(a) of the Act establishes a program that authorizes the SBA to
                   enter into contracts with other agencies and award subcontracts for
                   performing those contracts to firms eligible for program participation.
                   The SBA has delegated the authority to contract with firms enrolled in
                   the 8(a) Program directly to the agencies. Contracts are to be awarded
                   competitively if the anticipated award price of the contract will exceed $3
                   million and at least two responsible 8(a) firms could submit offers.

                   The Office of Inspector General performed audits of the Small
                   Disadvantaged Business Program at five management and operating
                                            1
                   contractors in FY 1994. The audits disclosed that none of the
                   contractors fully met the intent of the Act and implementing regulations.
                   The contractors awarded some subcontracts to firms of questionable
                   program eligibility. Also, two of the contractors concentrated awards
                   among a limited number of small disadvantaged businesses, and used
                   procurement practices that precluded opportunities for many small
                   disadvantaged businesses to participate.

                   The objective of this audit was to determine whether Chicago was
                   providing the maximum practicable opportunity for small disadvantaged
                   businesses to participate in contract awards.

                   Chicago did not provide the maximum practicable opportunity for small
                   disadvantaged businesses to participate in contract awards. Chicago had
CONCLUSIONS AND    twelve 8(a) contracts with small disadvantaged businesses in June 1998,
OBSERVATIONS       and only 3 were awarded on a competitive basis. Also, changes to the
                   terms and conditions of two of the procurements suggest that
                   adjustments were made to reduce the total anticipated costs to a level



                   ______________________________
                   1
                     Audit of Administration of the Department of Energy's Small Disadvantaged
                   Business Program (Report DOE/IG-0364, December 1994)

                   below the competitive threshold, allowing the contracts to be awarded


Page 1                                             Small Disadvantaged Business Program
                                                          at the Chicago Operations Office
         without competition. This condition existed because Chicago did not
         require acquisition personnel to comply with all requirements of the Act.
         As a result, the goal of the 8(a) Program was not fully achieved at
         Chicago, and the Department may have paid more than necessary for
         services provided by some 8(a) firms.

         The audit identified an issue that management should consider when
         preparing its yearend assurance memorandum on internal controls.




                                                   (SIGNED) Office of Inspector General




Page 2                               Small Disadvantaged Business Program
                                           at the Chicago Operations Office
Maximum Practicable Competition

Three of Twelve     As of June 1998, Chicago had 12 open contracts with small
Contracts Were      disadvantaged businesses enrolled in the 8(a) program with total
Awarded on a        estimated costs of $41.2 million. Only 3 of the contracts, valued at
Competitive Basis   $23.0 million, were awarded on a competitive basis. The other
                    9 contracts were awarded as sole-source procurements with estimated
                    costs below the $3 million threshold requiring competition.

                    Chicago awarded one-third of its 8(a) contracts at amounts minimally
                    below the threshold requiring competition (between $2,900,000 and
                    $2,999,999). Further, Chicago had a higher percentage of 8(a)
                    contracts minimally below the competitive threshold than any other
                    operations office or Headquarters procurement activity. Overall, less
                    than 6 percent of the Department's 8(a) contracts awarded by
                    Headquarters and the other 7 operations offices were valued between
                    $2,900,000 and $2,999,999. A summary of the procurement
                    organizations and their percentages of 8(a) contracts minimally below
                    the competitive threshold follows.
                    Chicago's percentage was more than twice that of any other
                                                           Total Between
                      Procurement          Total 8(a)      $2,9000,000 &        Percent in
                        Activity           Contracts         $2,999,999           Range


                    Headquarters              89                  5                 5.6

                    Albuquerque               23                  2                 8.7

                    Oak Ridge                 18                  2                11.1

                    Idaho                     17                  0                 0.0

                    Chicago                   12                  4                33.3

                    Nevada                     7                  1                14.3

                    Oakland                    6                  0                 0.0

                    Richland                   5                  0                 0.0

                    Savannah River             4                  0                 0.0

                    procurement office, and more than five times the average for the other
                    offices.

                    Additionally, 3 of the 4 contracts valued between $2,900,000 and
                    $2,999,999 were awarded as follow-on contracts to firms that had
                    performed similar work for slightly more or less than $3 million in the
                    previous contracts. The contract files did not document any effort to

Page 3                                                                     Details of Finding
                       obtain competition for the award of the current contracts, even
                       though 2 of the 3 previous contracts exceeded $3 million. The
                       following schedule shows the estimated contract values for the
                       current and previous contracts and the current estimates to complete
                       or open obligations for the previous contracts:
                       The previous contracts for Numbers 1 and 2 were awarded by the
                       Headquarters procurement organization. The Headquarters program

                                        Current Contract           Previous Contract

                           Contract         Estimated         Estimated           Current
                           Number            Amount            Amount              Value
                              1             $2,994,815        $2,989,108         $3,134,107

                              2             $2,904,508        $2,957,789         $2,466,768

                              3             $2,956,380        $2,988,466         $3,513,023


                       offices requested that Chicago award the follow-on contracts to the
                       incumbent firms. However, limiting the award of 8(a) contracts to
                       incumbent firms provides no opportunity for other 8(a) firms to
                       compete for the contracts.

                       Changes to the terms and conditions of two of Chicago's
                       procurements suggest that adjustments were made to reduce the total
                       anticipated costs to a level below the competitive threshold, allowing
Contract Values Were
                       the contracts to be awarded without competition. One contract was
Reduced to Avoid
                       awarded to an incumbent contractor after three Government cost
Competition
                       estimates were prepared and submitted by a Headquarters program
                       office. The first estimate was for a 3-year term at a cost of
                       $2.7 million. The program office decided that a 4-year term would be
                       more appropriate and increased the cost estimate to $3.2 million.
                       According to the program office’s file, Chicago informed the program
                       office that the second estimate was too high and needed to be
                       reduced to an amount below $3 million to allow the award of the
                       contract, without competition, to the incumbent contractor. The cost
                       estimate was subsequently reduced to $2,904,508 by lowering the
                       labor rates and using a lower escalation factor for annual increases.
                       After the cost estimate was reduced below $3 million, the award was
                       made to the incumbent contractor without competition from other
                       8(a) firms.




Page 4                                                                     Details of Finding
                           Another contract was awarded in a similar fashion. The program office
                           requested a cost proposal from the incumbent 8(a) contractor. The
                           contractor estimated total costs at $4.5 million. Rather than compete
                           the procurement, Chicago reduced the term of the acquisition by 1 year
                           and reduced the total cost estimate below $3 million. Afterward, the
                           award was made to the incumbent contractor for $2,956,380 without
                           competition.

                           The Act requires that small business concerns owned and controlled by
Small Business Act         socially or economically disadvantaged individuals have the maximum
Requires Maximum           practicable opportunity to participate in contracts awarded by Federal
Opportunity for Small      agencies, including the Department of Energy. The Congressional
Disadvantaged              policy implementing the Act requires that Federal agencies ensure a
Businesses                 competitive economic climate that reduces the concentration of
                           economic resources and expands competition. Section 8(a) of the Act
                           states that contracts are to be awarded competitively if at least two
                           responsible 8(a) firms submit offers and the anticipated price of the
                           contract is expected to exceed $3 million.

                           Chicago did not require its acquisition personnel to comply with the
Chicago Did Not
                           "maximum practicable opportunity" requirements of the Act. Chicago
Enforce the
                           had an internal review process for Small Disadvantaged Business
Requirements of the
                           Program procurements. However, the review process did not identify
Small Disadvantaged
                           any procurements where the terms and conditions were modified to
Business Act
                           reduce costs below the $3 million threshold.

                           As a result of these conditions, Chicago did not fully achieve the goal of
The Program Goal Was       the Small Disadvantaged Business Program, and the Department may
Not Fully Achieved, and    have paid more than necessary for the services provided by some 8(a)
the Department May Have    firms. Chicago exceeded its goal of awarding 15 percent of its contracts
Paid More Than Necessary   to small disadvantaged businesses. However, Chicago did not give small
for Some 8(a) Contracts    disadvantaged businesses the maximum practicable opportunity to
                           participate in contract awards. Further, the Department may have paid
                           more than necessary for the services provided by some 8(a) firms
                           because the contracts were awarded without the benefit of competition.
                           Had Chicago sought competitive bids instead of awarding contracts to
                           incumbents or sole sources on the basis of a single bid, the competitive
                           forces of the market place might have resulted in lower prices for the
                           Department.




Page 5                                                                          Details of Finding
RECOMMENDATIONS       We recommend that the Acting Manager, Chicago Operations Office,
                      direct the Acquisitions and Assistance Group to establish policy to:

                      1. Require acquisition personnel to comply with the “maximum
                         practicable opportunity” requirements of the Act,

                      2. Prohibit acquisition personnel from modifying the terms or
                         conditions of 8(a) procurements to reduce cost estimates and avoid
                         the requirement to seek competitive bids, and

                      3. Require acquisition personnel to seek competitive bids instead of
                         awarding follow-on contracts to incumbent contractors on a sole-
                         source basis.

MANAGEMENT REACTION   Management did not concur with the finding or recommendations,
                      stating that the two examples in the report show Chicago did an
                      outstanding job in negotiating fair and reasonable prices. Management
                      stated that Chicago used cost proposals as the basis for negotiating
                      prices that were in the Government's best interest rather than reducing
                      estimates below the threshold for competition. Also, management
                      stated that Chicago is frequently approached by various Headquarters
                      program offices to handle their small, support-service type agreements,
                      thereby contributing to a higher percentage of 8(a) contracts awarded
                      at lower dollar levels.

                      We disagree with management's statement that the procurements in the
AUDITOR COMMENTS      examples were negotiated in the Government's best interest. A
                      fundamental policy of Federal procurement is that competition is to be
                      obtained whenever practicable. Further, it is the responsibility of the
                      contracting officer to make every possible effort to obtain competition
                      in negotiated contracts. Had Chicago accepted the terms and
                      conditions of the procurements discussed in the report without regard
                      to the $3 million threshold, the procurements could have been
                      competed and the Government's best interests would have been fully
                      protected.

                      We recognize that Headquarters program offices frequently request
                      that Chicago handle their small, support-service type agreements. This
                      probably accounts for the frequency of contracts awarded for less than
                      $3 million at Chicago. However, it does not account for the high
                      percentage of 8(a) contracts awarded at prices between $2.9 million
                      and $3 million.


Page 6                                                 Recommendations and Comments
Appendix 1

SCOPE         The audit was performed at the Chicago Operations Office and
              Headquarters program offices located in Washington, D.C., and
              Germantown, Maryland, between June 30, 1998, and October 20, 1998.
              The audit covered small disadvantaged business contracts in effect as of
              June 15, 1998.

METHODOLOGY   To accomplish the audit objective, we:

                 • Reviewed the requirements of the Small Business Act,

                 • Evaluated Federal and Departmental regulations concerning the
                   award of contracts to small disadvantaged businesses,

                 • Reviewed procurement files maintained by Chicago’s Acquisition
                   and Assistance Group for contracts awarded to small
                   disadvantaged businesses, and

                 • Interviewed Chicago procurement personnel and Headquarters
                   program office personnel associated with 8(a) contracts at
                   Chicago.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits, and included
              such tests of internal controls and compliance with laws and regulations
              to the extent necessary to satisfy the objective of the audit. Because our
              review was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit. We
              placed minimal reliance on computer generated data, and validated such
              data when possible.




Page 7                                                      Scope and Methodology
                                                                                IG Report No. ER-B-99-02

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
